Case: 19-1535

Document: 30

Page: 1

Filed: 10/09/2019

®ntteb States Court of Appeals
for tfje jfeberal Circuit
RICARDO A. HAYNES,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS,
Respondent-Appellee
2019-1535
Appeal from the United States Court of Appeals for
Veterans Claims in No. 17-4657, Judge Amanda L.
Meredith.

JUDGMENT

THIS Cause having been considered, it is
Ordered and Adjudged:
DISMISSED
Entered By Order Of The Court
October 9. 2019

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

RECEIVED
MAY 1 2 2020
OFFICE OF THE CLERK
SUPREME COURT. IIS

Case: 19-1535

Document: 29

Page: 1

Filed: 10/09/2019

NOTE: This disposition is nonprecedential.

®ntteb States! Court of Appeals
for tfje Jfeberal Circuit
RICARDO A. HAYNES,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS,
Respondent-Appellee
2019-1535
Appeal from the United States Court of Appeals for
Veterans Claims in No. 17-4657, Judge Amanda L. Mere­
dith.
Decided: October 9, 2019
Ricardo A. Haynes, Washington, DC, pro se.
SEAN Lynden King, Commercial Litigation Branch,
Civil Division, United States Department of Justice, Wash­
ington, DC, for respondent-appellee. Also represented by
Joseph H. Hunt, Robert Edward Kirschman, Jr., Loren
Misha Preheim; Samantha Ann Syverson, Y. Ken Lee,
Office of General Counsel, United States Department of
Veterans Affairs, Washington, DC.

Case: 19-1535

Document: 29

2

Page: 2

Filed: 10/09/2019

HAYNES v. WILKIE

Before NEWMAN, Dyk, and CHEN, Circuit Judges.
Per Curiam.
Ricardo A. Haynes, proceeding pro se, appeals the de­
termination of the United States Court of Appeals for Vet­
erans Claims (Veterans Court) affirming the decision of the
Board of Veterans’ Appeals (Board) denying Mr. Haynes’s
claim for an increased disability rating. Because we lack
jurisdiction over this appeal, we dismiss.
I.
Mr. Haynes served on active duty in the U.S. Army
from September 1988 to March 1992. In January 2003, he
was granted disability compensation for post-traumatic
stress disorder (PTSD) with a 50% disability rating. In
April 2005, Mr. Haynes filed a claim for an increased disa­
bility rating. Though his claim was originally denied by
the Veterans Affairs (VA) Regional Office (RO) in Decem­
ber 2005, his disability rating was eventually increased to
70% effective April 29, 2005, and to 100% effective April 19,
2012, over the course of his appeal.
Mr. Haynes sought to increase his disability rating for
PTSD to 100% for the period between April 29, 2005 and
April 19, 2012, but the Board denied entitlement to this in­
crease. A 100% disability rating for mental disorders is
warranted where evidence demonstrates the following:
Total occupational and social impairment, due to
such symptoms as: gross impairment in thought
processes or communication; persistent delusions
or hallucinations; grossly inappropriate behavior;
persistent danger of hurting self or others; inter­
mittent inability to perform activities of daily liv­
ing (including maintenance of minimal personal
hygiene); disorientation to time or place; memory

Case: 19-1535

Document: 29

Page: 3

Filed: 10/09/2019

3

HAYNES v. WILKIE

loss for names of close relatives, own occupation, or
own name.
38 C.F.R. § 4.130. To evaluate entitlement to a particular
disability rating, a fact-finder must make findings regard­
ing the veteran’s “occupational and social impairment” and
not just focus on presence of certain symptoms. See
Vazquez-Claudio v. Shinseki, 713 F.3d 112, 116-17 (Fed.
Cir. 2013) (interpreting § 4.130 as “requiring] not only the
presence of certain symptoms but also that those symp­
toms have caused occupation and social impairment” asso­
ciated with the requested disability rating). Based on Mr.
Haynes’s lay statements, VA treatment records, and VA ex­
amination reports, the Board found that Mr. Haynes had
been employed and had maintained relationships with
family and friends during the relevant period between
2005 and 2012. Thus, the Board found that Mr. Haynes
did not demonstrate that his PTSD, during that time, had
caused “total occupational and social impairment” to war­
rant a 100% disability rating under § 4.130. SAppxlG.1
The Veterans Court affirmed the Board’s decision, not­
ing, among other things, that Mr. Haynes “does not ex­
pressly dispute the Board’s factual findings that there was
not total occupational and social impairment.” SAppx3.
Mr. Haynes’s appeal followed.
II.
Our jurisdiction to review decisions by the Veterans
Court is limited. Wanless v. Shinseki, 618 F.3d 1333, 1336
(Fed. Cir. 2010). Absent a constitutional issue, which Mr.
Haynes agrees is not in dispute here, we “may not review
(A) a challenge to a factual determination, or (B) a

i

Only one numbered appendix was provided, by the
Government, labeled “Supplemental Appendix.” Because
it was not joined by Mr. Haynes, we will refer to citations
within it with the given prefix “SAppx” and not J.A.

Case: 19-1535

Document: 29

4

Page: 4

Filed: 10/09/2019

HAYNES v. WILKIE

challenge to a law or regulation as applied, to the facts of a
particular case.” 38 U.S.C. § 7292(d)(2). We may review
“the validity of a decision of the [Veterans] Court on a rule
of law or of any statute or regulation ... or any interpreta­
tion thereof (other than a determination as to a factual
matter) that was relied on by the [Veterans] Court in mak­
ing the decision.” 38 U.S.C. § 7292(a).
III.
We conclude that we do not have jurisdiction to review
any of Mr. Haynes’s arguments on appeal, though his ar­
guments are less than clear. First, in response to whether
the Veterans Court’s decision involved “the validity or in­
terpretation of a statute or regulation,” Mr. Haynes
checked “No.” Appellant’s Informal Br. at 1. While Mr.
Haynes proceeded to argue that the Veterans Court’s deci­
sion was “out of compliance with federal regulations and
statutes,” id., he failed to identify any particular law or ar­
ticulate any theory of how the Veterans Court legally erred,
so as to provide a basis for our jurisdiction.
Second, Mr. Haynes appears to argue that the Veter­
ans Court erred by failing to obtain certain court martial
records. Id. It is unclear what records he is referring to
and how they are even relevant to this case. To the extent
they are relevant to undermining the Board’s finding that
Mr. Haynes lacked “total occupational and social impair­
ment” during the relevant time period, that inquiry would
turn on facts that are beyond the scope of our jurisdiction.
See 38 U.S.C. § 7292(d)(2); see also Clements v. Shinseki,
414 F. App’x 283, 285 (Fed. Cir. 2011). If Mr. Haynes is
implicitly arguing that the VA failed to satisfy its duty to
assist by not retrieving these records, that argument

Case: 19-1535

Document: 29

Page: 5

Filed: 10/09/2019

5

HAYNES v. WILKIE

appears to be waived..2 And even if it is not waived, Mr.
Haynes again does not explain why the Veterans Court’s
alleged failure to obtain certain records constitutes an er­
ror in legal interpretation such that we would have juris­
diction.
Third, Mr. Haynes asks us to hold that the “Veteran
Administration Counsel reasons and evidence” are “inad­
missible” because they are not in his possession.3 Appel­
lant’s Informal Br. at 2. We are unaware of, and Mr.
Haynes fails to provide, any legal basis for this request.
Thus, there is no allegation of any legal error for which we
have jurisdiction to review.
Finally, Mr. Haynes appears to be challenging the dis­
missal of a whistleblowing case in which he was involved,
but that is a separate case that is completely distinct from
this appeal.
Mr. Haynes has not presented any argument that could
provide a basis for this court’s jurisdiction. We have con­
sidered Mr. Haynes’s potential remaining arguments and
find them unpersuasive. Accordingly, we dismiss this ap­
peal.
DISMISSED

2 The Board found that Mr. Haynes had not “raised
any issues with the duty to notify or duty to assist.”
SAppxlO.
3 It is unclear what information Mr. Haynes is refer­
ring to. To the extent Mr. Haynes is seeking additional in­
formation concerning filings at the Veterans Court, such
information may be available from a docket search on the
Veterans Court’s website. To the extent Mr. Haynes
wishes to review material from his claims file, he should
contact the RO.

)

3
■)

1
)
)

o
o
0
D
O
O)
o

5!
CD

Designatedfor electronic publication only
UNITED STATES COURT OF APPEALS FOR VETERANS CLAIMS
No. 17-4657
Ricardo A. Haynes, Appellant,
V.

Robert L. Wilkie,
Secretary of Veterans Affairs, Appellee.

O

*.■

~a
o

Before MEREDITH, Judge.

u_
MEMORANDUM DECISION
CM
<3>
CD

co

Note: Pursuant to U:S. Vet. App. R. 30(d),
.this action may not be cited as precedent.

Of

o'
I T—

4-:

.c

MEREDITH, Judge: The appellant,. Ricardo A. Haynes, through counsel appeals an
August 10,2017, Board of Veterans’ Appeals (Board) decision that denied an increased disability

0)

rating for post-traumatic stress disorder (PTSD), currently evaluated as 70% disabling, from

O

April’29, 2005;To April 19* 20 |-2l Record (R,) af 1-12, This ajpeal is ilmcsly^ and the Court has,

"£
o

Q

LO
CO

ID

jurisdiction tofeview th^ Board's decision pursiiant to •38iU,S A |§-7252(0) and 72§6(a)- .Single?
judge disposition ts apprppriflte;.Slee Fratikel v. Denftmkl, 1 YetiApp..23, ,25t26 £1990)., For the
following.reasons, the Court will affirm the' Board'sdecislbn.

CT)

in
w

CO

O

t, BACKGROUND
The appe||antserv?d on active duty in the U;Sv Armyfrom Septeiiibir 1988 ty lyDarCh 1992.
R. at 2371. frt January 2003, a VA regional office{RO) granted his disahility compeftsation claim
for PTSD and awarded a 50% dlsabUity rating, effective April 2601. R, at 1619-21, 1624*28. This
appeal arises from his April 2005 claim for an increased disability rating, which was initially
•denied by an RO in December 2005* R- at 3j 1505^09, 1519; .vcelR; at: 1425-31, 1502-03,.During

J

3
J
O

o

)

3

the course of his appeal, VA granted a 70% disability rating from April 29, 2005, and a 100%
disability rating from April 19,2012. R. at 88-93, 1384-87, 1395-98.

In August 2017, the Board denied entitlement to a 100% disability rating for PTSD from
April 29,2005, to April 19,2012, finding that the evidence did not demonstrate that the appellant's
PTSD was productive of total occupational and social impairment. R. at 8. This appeal followed.
IL ANALYSIS
The appellant argues that the Board failed to support its decision with an adequate
o>
o
CSJ

statement of reasons or bases, alleging that the severity of his PTSD has been the same throughout
the appeal period and that the Board failed to discuss evidence of several symptoms, -which he

"e
CM

asserts are consistent with the diagnostic criteria for o 100%disahility rating. Appellant's Brief

CD

o

(Br.)at:4-10 (referring to pprsistfent delusions and hallucinations, grosslyInappropriate behavior,v

TD

grossimpairmcntin thpdghfprqcesses orcomraunicatiop, social withdrawal* and incompetence t>a»

il
CO
CM

O
05

05

handle the disbursement of Binds). The Secretary disagrees in part with the appellant’s
characterization of some of the evidence, but* argues that, even assuming tNi iftfe appellant'
experienced these sympioms,"^ presence of some symptoms in the crKeria fora I00%disabllfty

0.

•.rating does,not establish entitlement to therating.” Secretary's Bn at 11-17, Rather,the symptoms

O

must cause total occupational and social impairment icf.
The appellant's PTSD is measured against the rating criteria described in3ffC'.F;R. § 4,130,

4-:

c

d)

E
o
o

Q

ID

CO

in

T”

a>

oi

w
CD

O

Diagnostic Code (DC) 9411, which directs the rating specialist to apply the general rating formula1
for mental disorders. According to the general rating formula, a 100% disability rating is warranted’
where the evidence demonstrates the following:
Total occupational and social impairment, due to such symptoms .as: gross
%iP9irmeht in thought processes'or communication; persistent delusions or
hallucinations; grossly inappropriate behavior;, persistent danger of hurting self or
others; intermittent inability to' perform activities of daily living, (including
maintenance of minimal personal hygiene); disorientation to time or place;* memory
loss lor names, of close relatives, own occupation, or own name.
28 C.F.R.§ 4.130, DC9411 (2Ql8). Jt is Well settled (hat toqualify for a particular disability rating,
§ 4.1 3Q requires "not only the presence of Certain symptomsf,] but also that those symptoms have
caused occupational and social impairment** associated, with the requested disability rating.
VmquBZ-Oavdin vf Shimeki, 713F ,3 d | 12, | 1647 (Fed. Cirt 2013)..
Here, the Board .found1 that die appellant's PTSD was not .prodUctive oftotsr.oectipfltrondL'
and social impairment, noting in part that the appellant had been employed most of the appeal
period and that he had maintained relationships with his family and a few friends. R. at 8-9. The
2

appellant does noi expressly dispute the Board's factual findings that there was not total
occupational and social impairment, nor does he explain why or how discussion of the symptoms
!

the Board allegedly overlooked undermines the Board's conclusion. Thus, even assuming that the
appellant's arguments are sufficient to demonstrate a reasons or bases error, he has not carried his
burden ofdemonstrating how any such error was prejudicial. ''See 38 U.S.C, § 7261(b)(2) (requiring
the Court to "take due account of the rule of prejudicial error1.’); Shimekiw Sanders, 556 U.S. 396,

/<»
o
.Csj

CM
'CO

409 (2009) (holding that the harm less-err or analysis applies to the Court’s review of Board
decisions and that the burden is on the appellant to show that he or she suffered prejudice as a
result of VA error). Accordingly, the Court will affirm the Board’s decision.

o

-O

il
(■'fr.
CM

III. CONCLUSION
After consideration of the parties1 pleadings and a review of the record, the Board's
August I0,2017, decision is AFFIRMED.

Cli

CD

DATED: January 9, 2019
■t

o

C
. c
* <D

(I

<2
O

Copies to:
Ashley C. Gautreau, Esq.
VA General Counsel (027)

<2
Vi
o>
JtD

Cro

a0
o
j

o
>

j

o

J)
J
)

3

BOARD OF VETERANS’ APPEALS
Department of Veterans Affairs
Washington, DC 20420

¥■

IN THE APPEAL OF
RICARDO A. HAYNES

DOCKET NO. 07-17 431A

)

3)051

)

ttugudt 10, 2017
3131

)

On appeal from the
Department of Veterans Affairs Regional Office in Chicago, Illinois

THE ISSUE
Entitlement to an increased rating for posttraumatic stress disorder (PTSD),
currently evaluated as 70 percent disabling for the period from April 29, 2005, to
April 19, 2012.

REPRESENTATION
Appellant represented by: Disabled American Veterans

WITNESS AT HEARING ON APPEAL
The Veteran

ATTORNEY FOR THE BOARD
K. Osegueda, Counsel

r
IN THE APPEAL OF
RICARDO A. HAYNES

INTRODUCTION
The Veteran had active service from September 1988 to March 1992.
The case initially came before the Board of Veterans’ Appeals (Board) on appeal
from a December 2005 rating decision of the Department of Veterans Affairs (VA)
Regional Office (RO) in Chicago, Illinois. In that decision, the RO denied an
increased rating for PTSD and continued the 50 percent rating then in effect.
In a November 2007 supplemental statement of the case (SSOC), a Decision
Review Officer (DRO) granted a 70 percent rating, effective from April 29, 2005,
which was the date that the Veteran filed his claim for an increased rating. In an
August 2009 statement, the Veteran indicated that he was seeking a 100 percent
schedular rating, and the appeal remained in appellate status.
In a June 2016 rating decision, the RO granted a 100 percent rating, effective from
April 19, 2012. Although the appellant has been awarded the maximum schedular
rating for his disability from April 19, 2012, the question of his entitlement to a
rating in excess of 70 percent prior to that time remains on appeal. See AB v. Brown,
6 Vet. App. 35 (1993).
In August 2007, the Veteran presented testimony at a hearing before a DRO at the
RO. In February 2011, the Veteran also presented testimony at a videoconference
hearing before the undersigned Veterans Law Judge at the RO. Transcripts of these
hearings have been associated with the record.
In April 2011, December 2012, and August 2013, the Board remanded the case for
further development. That development was completed, and the case has since been
returned for appellate review.
This appeal was processed using the Veterans Benefits Management System
(VBMS) paperless claims processing systems. Accordingly, any future
consideration of this Veteran’s case should take into consideration the existence of
this electronic record.

-2-

IN THE APPEAL OF
RICARDO A. HAYNES

FINDING OF FACT
For the period from April 29, 2005, to April 19, 2012, the Veteran’s PTSD was
productive of occupational and social impairment in most areas, but not total
occupational and social impairment.

CONCLUSION OF LAW
For the period from April 29, 2005, to April 19, 2012, the criteria for an increased
rating greater than 70 percent for PTSD have not been met or approximated.
38 U.S.C.A. §§ 1155, 5107 (West 2014); 38 C.F.R. §§ 3.102, 3.159, 3.321, 4.14.14, 4.130, Diagnostic Code 9411 (2016).

REASONS AND BASES FOR FINDING AND CONCLUSION
Neither the Veteran nor his representative has raised any issues with the duty to
notify or duty to assist. See Scott v. McDonald, 789 F.3d 1375,1381 (Fed.
Cir. 2015) (holding that “the Board’s obligation to read filings in a liberal manner
does not require the Board ... to search the record and address procedural
arguments when the veteran fails to raise them before the Board.”); Dickens v.
McDonald, 814 F.3d 1359,1361 (Fed. Cir. 2016) (applying Scott to a duty to assist
argument).

Law and Analysis
Disability ratings are determined by applying the criteria set forth in the VA
Schedule for Rating Disabilities, found in 38 C.F.R., Part 4. The rating schedule is
primarily a guide in the evaluation of disability resulting from all types of diseases
and injuries encountered as a result of or incident to military service. The ratings
are intended to compensate, as far as can practicably be determined, the average
impairment of earning capacity resulting from such diseases and injuries and their

-3 -

L

f
IN THE APPEAL OF
RICARDO A. HAYNES

residual conditions in civilian occupations. 38 U.S.C.A. § 1155; 38 C.F.R. § 4.1.
Where there is a question as to which of two evaluations shall be applied, the higher
evaluation will be assigned if the disability picture more nearly approximates the
criteria for that rating. 38 C.F.R. § 4.7.
In considering the severity of a disability, it is essential to trace the medical history
of the veteran. 38 C.F.R. §§ 4.1, 4.2, 4.41. Consideration of the whole-recorded
history is necessary so that a rating may accurately reflect the elements of disability
present. 38 C.F.R. § 4.2; Peyton v. Derwinski, 1 Vet. App. 282 (1991). While the
regulations require review of the recorded history of a disability by the adjudicator
to ensure a more accurate evaluation, the regulations do not give past medical
reports precedence over the current medical findings.
Where a veteran appeals the denial of a claim for an increased disability rating for a
disability for which service connection was in effect before he filed the claim for
increase, the present level of the veteran’s disability is the primary concern, and
past medical reports should not be given precedence over current medical findings.
Francisco v. Brown, 7 Vet. App. 55, 57-58 (1994). However, where the question
for consideration is a higher initial rating since the grant of service connection,
evaluation of the medical evidence since the grant of service connection to consider
the appropriateness of “staged rating” (assignment of different ratings for distinct
periods of time, based on the facts found) is required. Fenderson v. West, 12 Vet.
App. 119, 126 (1999); see also Hart v. Mansfield, 21 Vet. App. 505 (2007).
The Veteran has contended that he is entitled to an increased rating for his PTSD.
As noted above, although the appellant was awarded the maximum schedular rating
for his disability effective from April 19, 2012, in a June 2016 rating decision, the
question of his entitlement to a rating in excess of 70 percent prior to that time
remains on appeal. He is currently assigned a 70 percent evaluation for the period
from April 29, 2005, to April 19, 2012, pursuant to 38 C.F.R. § 4.130, Diagnostic
Code 9411.
Under Diagnostic Code 9411, a 70 percent rating is warranted when the psychiatric
disorder results in occupational and social impairment, with deficiencies in most

-4-

r
IN THE APPEAL OF
RICARDO A. HAYNES

areas, such as work, school, family relations, judgment, thinking, or mood, due to
such symptoms as: suicidal ideation; obsessional rituals which interfere with routine
activities; speech intermittently illogical, obscure, or irrelevant; near-continuous
panic or depression affecting the ability to function independently, appropriately
and effectively; impaired impulse control (such as unprovoked irritability with
periods of violence); spatial disorientation; neglect of personal appearance and
hygiene; difficulty in adapting to stressful circumstances (including work or a work­
like setting); inability to establish and maintain effective relationships.
A 100 percent rating is warranted when the psychiatric disorder results in total
occupational and social impairment, due to such symptoms as: gross impairment in
thought processes or communication; persistent delusions or hallucinations; grossly
inappropriate behavior; persistent danger of hurting self or others; intermittent
inability to perform activities of daily living (including maintenance of minimal
personal hygiene); disorientation to time or place; memory loss for names of close
relatives, own occupation, or own name.
The use of the term “such as” in the general rating formula for mental disorders in
38 C.F.R. § 4.130 demonstrates that the symptoms after that phrase are not intended
to constitute an exhaustive list, but rather are to serve as examples of the type and
degree of symptoms, or their effects, that would justify a particular rating. See
Mauerhan v. Principi, 16 Vet. App. 436, 442 (2002). It is not required to find the
presence of all, most, or even some, of the enumerated symptoms recited for
particular ratings. Id. The use of the phrase “such symptoms as,” followed by a list
of examples, provides guidance as to the severity of symptoms contemplated for
each rating, in addition to permitting consideration of other symptoms, particular to
each veteran and disorder, and the effect of those symptoms on the claimant’s social
and work situation. Id.
In Vazquez-Claudio v. Shinseki, 713 F.3d 112 (Fed. Cir. 2013), the Federal Circuit
stated that “a veteran may only qualify for a given disability rating under § 4.130 by
demonstrating the particular symptoms associated with that percentage, or others of
similar severity, frequency, and duration.” It was further noted that “§ 4.130

-5-

k.

IN THE APPEAL OF
RICARDO A. HAYNES

requires not only the presence of certain symptoms but also that those symptoms
have caused occupational and social impairment in most of the referenced areas.”
The Board notes that the regulations were recently revised to incorporate the Fifth
Edition of the American Psychiatric Association’s Diagnostic and Statistical
Manual of Mental Disorders (DSM-V) rather than the Fourth Edition (DSM-IV).
However, these provisions only apply to cases received by or pending before the
AOJ on or after August 4, 2014. The change does not apply to cases certified to the
Board prior to that date. In this case, the Veteran’s claim was certified to the Board
prior to August 4, 2014; therefore, the regulations pertaining to the DSM-IV are for
application.
Psychiatric examinations frequently include assignment of a Global Assessment of
Functioning (GAF) score. According to the DSM-IV, GAF is a scale reflecting the
“psychological, social, and occupational functioning on a hypothetical continuum of
mental health illness.” There is no question that the GAF score and interpretations
of the score are important considerations in rating a psychiatric disability. See, e.g.,
Richard v. Brown, 9 Vet. App. 266, 267 (1996); Carpenter v. Brown, 8 Vet. App.
240 (1995). However, the GAF score assigned in a case, like an examiner’s
assessment of the severity of a condition, is not dispositive of the evaluation issue;
rather, the GAF score must be considered in light of the actual symptoms of the
Veteran’s disorder, which provide the primary basis for the rating assigned. See
38 C.F.R. § 4.126(a).
In considering the evidence of record under the laws and regulations as set forth
above, the Board concludes that the Veteran is not entitled to an increased rating
greater than 70 percent for the period from April 29, 2005, to April 19, 2012.
Throughout the entire appeal, the Veteran has maintained a history of symptoms
that predominantly include social withdrawal, hallucinations, paranoid delusions,
episodic confusion, tangential thinking, grandiosity, and sporadic, varied sleep.
These symptoms support a 70 percent evaluation. Nevertheless, for the period from
April 29, 2005, to April 19, 2012, the evidence of record, to include consideration
of the Veteran’s lay statements, VA treatment records, and the VA examination

-6-

k

IN THE APPEAL OF
RICARDO A. HAYNES

reports, does not demonstrate that the Veteran’s overall disability picture is
consistent with a 100 percent rating.
A 100 percent rating is warranted when the psychiatric disorder results in total
occupational and social impairment, due to such symptoms as: gross impairment in
thought processes or communication; persistent delusions or hallucinations; grossly
inappropriate behavior; persistent danger of hurting self or others; intermittent
inability to perform activities of daily living (including maintenance of minimal
personal hygiene); disorientation to time or place; and memory loss for names of
close relatives, own occupation, or own name.
The Veteran does not have a number of the symptoms listed in the 100 percent
criteria during the appeal period. There is no evidence of persistent danger of
hurting self or others; intermittent inability to perform activities of daily living
(including maintenance of minimal personal hygiene); disorientation to time or
place; or memory loss for names of close relatives, own occupation, or own name.
For example, he denied having suicidal and homicidal thoughts at the July 2005,
July 2009, and May 2011 VA examinations. There was also no memory loss or
impairment at the July 2009 and May 2011 VA examinations. Additionally, at the
July 2005 VA examination, it was noted that the Veteran maintained the normal
activities of daily living, and the July 2009 VA examiner indicated that he was able
to maintain personal hygiene and basic activities of daily living.
To the extent these symptoms may be shown or argued, the Board emphasizes that
the Veteran’s PTSD was not productive of total occupational and social impairment.
As to occupational impairment, during the July 2005 VA examination, the Veteran
reported that he was unemployed for 30 days, but indicated that he previously
worked in a nursing home. In an October 2005 VA treatment note, the Veteran
indicated that he was previously employed as a social worker and performed
psychosocial therapy in a nursing home for over three years until July 2005. In
May 2006 VA treatment notes, the Veteran reported that he had considered
returning to college and pursuing graduate education. During the July 2009 VA
examination, the Veteran reported that he worked as a technician and a social

-7-

V
IN THE APPEAL OF
RICARDO A. HAYNES

worker at a hospital until his grandmother died from 2005 to 2006. He was
unemployed for a period following his work at the hospital. However, during the
May 2011 VA examination, the Veteran reported that he worked at the Department
of Human Services in the food stamps department for five years. He indicated that
he usually arrived late due to oversleeping, but he never took vacations. He stated
that he got along well with some of his coworkers, but indicated that he had trouble
with security at work because he thought that he was being monitored. In a
February 2012 Family and Medical Leave Act (FMLA) application, the Veteran
indicated that he worked full-time in the Department of Human Services and that
his essential job function was preparing customers for independent living. The
Board notes that, in a November 2005 VA opinion, the Veteran’s treating
psychiatrist opined that his symptoms have made employment impossible.
However, such a statement is contradicted by the evidence of record that showed
that the Veteran was employed in a nursing home, hospital, and at the Department
of Human Services during the period on appeal. In addition, in the February 2012
FMLA application, the same psychiatrist noted that it might be necessary for the
Veteran to “occasionally be absent from work during flare-ups” of PTSD
symptoms. She estimated that the Veteran may have flare-ups two times per month
that would incapacitate him for one day per episode.
In summary, the evidence shows that the Veteran has maintained employment
during this time period with the exception of the time period following his
grandmother’s death. Specifically, he worked until the time of her death in June
2005 and then reported in May 2011 that he had been employed full-time for five
years, which would have been since 2006. See also February 2011 hearing
transcript (reporting full-time employment since July 2006).
Moreover, there is no evidence that the Veteran had total social impairment during
the appeal period. While the Veteran was socially withdrawn, he did maintain
relationships with his family and a few friends throughout the period on appeal. In
a May 2008 VA treatment note, the Veteran reported that he lived with family
members. During the May 2011 VA examination, he reported that he was teased by
his family because he never married and he had not had many intimate
relationships. However, he stated that he talked to some of his siblings on a

-8-

IN THE APPEAL OF
RICARDO A. HAYNES

monthly basis. He also indicated that he had a few friends that he hung out with on
a regular basis, and he saw his son three to four times per week and reported that
they got along well. Thus, it cannot be said that he had total social impairment, as
he did maintain some relationships during this time period.
The Board emphasizes that a 100 percent disability evaluation requires both total
social and occupational impairment. See Melson v. Derwinski, 1 Vet. App. 334
(1991) (use of the conjunctive "and" in a statutory provision meant that all of the
conditions listed in the provision must be met); cf. Johnson v. Brown, 7 Vet. App.
95 (1994) (only one disjunctive "or" requirement must be met in order for an
increased rating to be assigned).
After considering the evidence of record, the Board finds that the Veteran’s
symptoms more closely approximate the criteria for a 70 percent disability rating
for the period from April 29, 2005, to April 19, 2012. Overall, the Veteran has not
demonstrated a level of impairment consistent with the 100 percent criteria, nor
have the Veteran’s symptoms caused total occupational and social functioning
referenced by the 100 percent evaluation criteria. Mauerhan, supra, VazquezClaudio, supra. The criteria for the next higher rating of 100 percent have not been
met or approximated for this time period. See 38 C.F.R. § 4.130, Diagnostic Code
9411. Therefore, the Board finds that the Veteran’s PTSD warrants a 70 percent
rating, and no higher, for the appeal period from April 29, 2005, to April 19, 2012.

ORDER
An evaluation in excess of 70 percent for PTSD for the period from April 29, 2005,
to April 19, 2012, is denied.

J.W. ZISSIMOS
Veterans Law Judge, Board of Veterans’ Appeals

-9-

